<html>
<title> - KICK STARTING ENTREPRENEURSHIP AND MAIN STREET ECONOMIC RECOVERY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 KICK STARTING ENTREPRENEURSHIP AND MAIN 
                         STREET ECONOMIC RECOVERY

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON RURAL DEVELOPMENT, AGRICULTURE, TRADE, AND 
                            ENTREPRENEURSHIP

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                           SEPTEMBER 10, 2020

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               

            Small Business Committee Document Number 116-091
             Available via the GPO Website: www.govinfo.gov             
             
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-345                    WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                         KWEISI MFUME, Maryland
                          JUDY CHU, California
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                 Melissa Jung, Majority Staff Director
   Justin Pelletier, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Abby Finkenauer.............................................     1
Hon. John Joyce..................................................     3

                               WITNESSES

Mr. Chad Nath, Executive Director, LINK Grinnell Inc., Grinnell, 
  IA.............................................................     6
Mr. Jeremy Ketelsen, Vice President, Ketelsen RV, Hiawatha, IA...     8
Mr. Mark Rembert, Head of the Rural Innovation Network, Center on 
  Rural Innovation, Hartland, VT.................................     9
Mr. Jason Duff, Founder, Small Nation, Bellefontaine, OH.........    11

                                APPENDIX

Prepared Statements:
    Mr. Chad Nath, Executive Director, LINK Grinnell Inc., 
      Grinnell, IA...............................................    21
    Mr. Jeremy Ketelsen, Vice President, Ketelsen, RV, Hiawatha, 
      IA.........................................................    23
    Mr. Mark Rembert, Head of the Rural Innovation Network, 
      Center on Rural Innovation, Hartland, VT...................    26
    Mr. Jason Duff, Founder, Small Nation, Bellefontaine, OH.....    33
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    Engine.......................................................    36
    National Association of Federally-Insured Credit Unions 
      (NAFCU)....................................................    40

 
    KICK STARTING ENTREPRENEURSHIP AND MAIN STREET ECONOMIC RECOVERY

                              ----------                              


                      THURSDAY, SEPTEMBER 10, 2020

                  House of Representatives,
               Committee on Small Business,
   Subcommittee on Rural Development, Agriculture, 
                       Trade, and Entrepreneurship,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1:00 p.m., in 
Room 2360 and via Webex, Rayburn House Office Building. Hon. 
Abby Finkenauer [chairwoman of the Subcommittee] presiding.
    Present: Representatives Finkenauer, Craig, Chabot, Joyce, 
and Bishop.
    Chairwoman FINKENAUER. I call this meeting to order.
    I want to thank everyone for joining us this afternoon or 
morning, depending on where you are in the country right now. I 
want to make sure to note some important requirements as we 
conduct this official remote hearing.
    Standing House and Committee rules and practice will 
continue to apply during remote proceedings. All members are 
reminded that they are expected to adhere to these standing 
rules, including decorum.
    During the covered period as designated by the speaker, the 
Committee will operate in accordance with H.Res. 965 and the 
subsequent guidance from the Rules Committee in a manner that 
respects the rights of all members to participate. House 
regulations require members to be visible through a video 
connection throughout the proceedings. So please keep your 
cameras on. If you have to participate in another proceeding, 
please exit this one and then log back on later.
    In the event a member encounters technical issues that 
prevents them from being recognized for their questioning, I 
will move to the next available member of the same party and I 
will recognize that member at the next appropriate time slot 
provided they have returned to the proceedings. Should a 
member's time be interrupted by technical issues, I will 
recognize that member at the next appropriate spot for the 
remainder of their time once their issues have been resolved.
    In the event a witness loses connectivity during testimony 
or questioning, I will preserve their time as staff addresses 
the technical issues. I may need to recess the proceedings to 
provide time for the witness to reconnect. Hopefully we do not 
have any of those issues.
    Finally, remember to remain muted until you are recognized 
to minimize background noise. In accordance with the rules 
established under H.Res 965, staff have been advised to mute 
participants only in the event that there is an inadvertent 
background noise. Should a member wish to be recognized, they 
must first unmute themselves and then seek recognition at the 
appropriate time.
    Before we really get started, I want to start by 
recognizing the Iowans in my community and across the state who 
I know have gone through so much over the last month--
obviously, because of the pandemic, but we also got hit in Iowa 
and in my district with what were essentially category four 
hurricane-style winds in August. These 140-mile per hour winds 
took down many trees that been standing for 150 or 200 years. 
The City of Cedar Rapids and the surrounding areas had already 
been through a lot before 2020, including the floods back in 
2008 and 2016. This disaster was just on a different scale 
affecting the City of Cedar Rapids at all the surrounding 
areas. Marion, Hiawatha, all of Lim County essentially and then 
our surrounding counties as well, like Buchanan, Poweshiek, 
Tama, Marshall, Iowa County, just to name a few. The two 
witnesses from Iowa today also have been impacted, whether by 
damage to their own businesses or to their homes. Mr. Nath and 
Mr. Ketelsen, when you agreed to be a part of this hearing, we 
were going to have a whole new host of challenges that we are 
dealing with here in Iowa. As Mr. Ketelsen told me this 
morning, though, we are Iowans--we'll get through this. But it 
is still going to be tough. We are really grateful to have 
Jeremy and Chad with us today.
    Now we have a whole new host of challenges that we are 
dealing with here in Iowa. As Mr. Ketelsen told me this 
morning, we are Iowans--we'll get through this. But it is still 
going to be tough. We are really grateful to have Jeremy and 
Chad with us today.
    We are also grateful to our other witnesses for joining us, 
from Vermont and Ohio. You guys have been through a lot with 
the pandemic, so we are just very, very grateful to you for 
taking the time to join us today as well.
    We all are still going through this pandemic. In Iowa, we 
have had over 69,000 folks who tested positive for COVID-19, 
and we have lost over 1,100 Iowans. There is still a long way 
to go, but we need to make sure we are doing everything we can 
to help our friends and neighbors. The pandemic has also caused 
hardship for our small businesses due to the downturn in our 
economy, and 7.5 million small businesses are now at risk of 
closure, many of them in our rural areas.
    What is especially frustrating is that we have spent nearly 
a decade recovering from the recession in 2008, only to now 
have our rural economies take another devastating hit. The 
Recession had a lasting and disproportionate impact on rural 
America. Two out of every three rural counties experienced a 
decline in their total number of businesses and a decline in 
their population as families left to find different 
opportunities.
    This is something that I saw happen firsthand in Iowa, 
where, in much like the rest of the country, recovery took hard 
work. Iowans took very big risks to start their own businesses, 
and it paid off. In 2016, nearly 1,900 new businesses started 
in Iowa, creating 7,000 new jobs.
    This did not just happen in Iowa, though.
    In 2017, America's small businesses created 8.4 million new 
jobs across the country. But not every community bounced back 
from the recession, and there are still places, especially in 
rural areas, that have never been able to bring back the jobs 
and opportunities that they lost.
    And now as we deal with the fallout from this pandemic, we 
need to make sure that no businesses or communities are left 
behind.
    Recently, I introduced the Unlocking Opportunities in 
Emerging Markets Act, which would create a new office at the 
Small Business Administration to focus entirely on how can we 
help improve access to capital for underrepresented 
entrepreneurs like in those rural areas, people of color, 
women, and our Nation's veterans. This is just one of the many 
bipartisan bills that are being put forward to help our small 
business owners to be successful in the long term, which is 
what we need to continue to be thinking about.
    I know that all of my colleagues here today have been 
working hard to come up with new ideas and solutions to help 
get our economy back on track, and that's why I am very, very 
thankful to get to serve on this Committee with you all.
    We wanted to hold this hearing to hear directly from 
America's rural small business owners about what they need to 
move forward and what the pandemic has meant for their 
businesses.
    I also look forward to hearing from our policy expert about 
how rural America can be a catalyst for job creation across the 
country.
    We can create opportunities in rural America if we do this 
right, whether it is ensuring access to broadband or creating 
opportunities so folks who are in bigger cities right now can 
move back home to the small towns they are from. We just have 
to do our job to address these issues on the federal level, 
working with folks at the local and state levels.
    Before I pass it over to Ranking Member Joyce, I want to 
thank Dr. Joyce for joining. Dr. Joyce, it has been great to 
get to work with you over the last year and a half, and I am 
happy to have you here today and would love to pass it over to 
you and yield to you for your opening statement.
    I think you have got it on mute, Dr. Joyce. There you go.
    Mr. JOYCE. Thank you, Chairwoman Finkenauer. Thank you for 
your leadership. I send my greetings from my district office in 
Somerset, Pennsylvania, where tomorrow we will hold a memorial 
of the Flight 93 tragedy which occurred on 9/11. Echoing the 
sentiments from my district, tomorrow will be a somber day, and 
yet we are all in stages of recovery which we will continue.
    In this Subcommittee, this important Subcommittee on Rural 
Development, Agriculture, Trade and Entrepreneurship, we have 
discussed the importance of economic development and of 
rejuvenation of America's small businesses. The global pandemic 
has only underscored the importance of these small businesses. 
And while there is little data that is truly available on the 
number of rural small businesses, some estimate that there are 
approximately 5.5 million rural small businesses in the United 
States. We know, particularly on this Subcommittee, that small 
businesses are a critical component of the rural economy, which 
makes them a focal point of many Federal rural economic 
development efforts.
    Rural small businesses do, indeed, differ from urban and 
suburban small firms in many ways. Generally, rural firms are 
more likely to be profitable long term and typically more 
successful than nonrural firms in getting financing. 
Additionally, rural businesses tend to be smaller in size, 
smaller in revenue, and often smaller in growth opportunities.
    We have had multiple hearings on the major challenges 
experienced by rural small businesses, including inadequate 
access to rural broadband, fewer methods to access capital, 
higher healthcare costs with limited access to rural 
physicians, increased childcare expenses, and workforce 
shortages. We know that small towns and rural communities 
struggle with these issues each and every day. But the 
coronavirus pandemic has continued to bring these issues to the 
forefront of our Nation's attention.
    About 46 million Americans live in rural areas, and 
unfortunately, some rural residents are at increased risk of 
getting COVID-19. Demographic characteristics and geographic 
features coupled with reduced healthcare disrupt the ability of 
rural regions to respond to the pandemic. The slowdown in 
aggregate demand has affected some primary sectors and the 
expected further slowdown in trade and global demand might 
continue to negatively impact rural economies.
    And due to these factors, we must be proactive in our goal 
of helping America's Main Street to recovery. Unfortunately, we 
find ourselves once again discussing the persistent challenges 
that we in rural communities face every single day. As this 
issue has yet to receive a resolution, we have witnessed in 
real time the destructive lack of access to healthcare, 
telehealth, and broadband specifically in our rural 
communities.
    The question is no longer what is the issue but rather, 
what can we do? In partnership with private and nonprofit 
organizations, we can increase access to these lifesaving and 
life-providing resources in order to create equitable 
opportunity for rural small businesses.
    The Hill recently released an article discussing the 
significant dynamic of Americans who are moving in waves to 
suburban and rural areas. Some reasons cited include the 
pandemic, social unrest, and economic uncertainty. While the 
permanency and benefit of this change remains to be seen, we 
will assess the impact that this will have on our communities 
as our economics continue to recover and the pandemic continues 
to slow. Now, when we see a great migration from cities to 
rural and suburban communities, we must not only talk about the 
strain on resources but we must discern how to leverage these 
resources so that we can retain those who have moved into our 
communities and foster the opportunities for further growth and 
development.
    For these pressing issues, I am proud to work with you on 
this Committee where we host witnesses on a wealth of knowledge 
on these specifics and can come up with bipartisan solutions 
that benefit all of our Nation's rural communities. It is 
imperative that we learn from those who, like our panel today, 
know what it is like to steer a small business through a 
pandemic.
    I look forward to hearing the testimony of our witnesses 
today and to the continued partnership and bipartisan nature of 
this Subcommittee.
    Thank you, Madam Chairwoman, and I yield back.
    Chairwoman FINKENAUER. Thank you, Dr. Joyce. The gentleman 
yields back.
    If Committee members have opening statements prepared, I 
would ask that they be submitted for the record.
    I would like to just take a minute now to explain the 
timing rules. Each witness gets 5 minutes to testify and then 
each member gets 5 minutes for questioning. There is a lighting 
system to assist you. The green light will be on when you 
begin, and then the yellow light comes on when you have 1 
minute remaining. The red light comes on when you are out of 
time, and we ask that you stay within the 5-minute timeframe to 
the best of your ability.
    Now I would now like to introduce our witnesses.
    Our first witness is Mr. Chad Nath. Mr. Nath is the 
director of LINK Grinnell, a nonprofit organization that offers 
daycare and afterschool care. LINK--which stands for lead, 
inspire, nurture and keep children educated, enriched, and 
engaged in the Grinnell community--aims to provide a safe and 
inclusive learning environment for all children. Mr. Nath holds 
a B.A. in Education from Buena Vista University, has held 
positions as a kindergarten and special education teacher, and 
has also worked in the healthcare sector. Mr. Nath, you have 
done a lot and you have done it all in our rural areas like 
Grinnell, and we are very, very grateful to have you here. 
Welcome, Mr. Nath.
    Our second witness is Mr. Jeremy Ketelsen. Mr. Ketelsen is 
the vice president of Ketelsen RV located in Hiawatha, Iowa. 
Ketelsen RV began as a small RV business on the family farm in 
1962, when Mr. Ketelsen's grandfather wanted a camper. The 
business opened a storefront in Marion, Iowa, and later started 
a service department, a parts department, and eventually a 
sales department. Mr. Ketelsen, we are really happy to have you 
here. It was great to chat with you and Mr. Nath this morning. 
I am really interested to hear how you are hanging in there 
with both the pandemic and the derecho now. Welcome, Mr. 
Ketelsen.
    Our third witness is Mr. Rembert. Mr. Rembert is a regional 
economist and head of the Rural Innovation Network at the 
Center on Rural Innovation in Heartland, Vermont. He started in 
this line of work when his hometown of Wilmington, Ohio faced 
the loss of 10,000 jobs during the recession. It led him to 
cofound the nonprofit Energize Clinton County in 2008, and he 
later served as the executive director of the Wilmington 
Clinton County Chamber of Commerce. He holds a Ph.D. in 
Regional Economics from The Ohio State University. Welcome, Mr. 
Rembert.
    I would now like to yield to our Ranking Member, Dr. Joyce, 
to introduce our final witness.
    Mr. JOYCE. Thank you, Chairwoman Finkenauer.
    Our final witness is Jason Duff, founder and CEO of Small 
Nation, a company in Bellefontaine, Ohio that revitalizes small 
towns and helps small town entrepreneurs across the country. 
Jason is a fourth generation in a family of entrepreneurs and 
grew up gaining firsthand knowledge of how entrepreneurship, 
good financial practices, and hard work can bring great 
success. After graduating from the Ohio Northern University 
with a Bachelor of Science in Business Administration, he 
founded Community Storage and Properties, a local self-storage 
company that allowed Jason to invest in the redevelopment of 
Bellefontaine. He then founded an outdoor media company 
operating over 400 billboards in Ohio and Indiana. In 7 years, 
Jason and his business, Small Nation team have helped to 
revitalize the City of Bellefontaine. Using their hustle-hard 
approach, they have managed to renovate more than 30 historic 
buildings that have been sitting empty for decades, and then 
recruit tenants for 14 new business concepts. This created 18 
new loft apartments, adding a crucial residential component 
back to the city's downtown. The combination of retail, 
restaurant, and residential have brought a small-town Main 
Street back to life. He is a member of the Small Business 
Council for the U.S. Chamber of Commerce, the Small Business 
and Entrepreneur Council, and serves on the Board of Trustees 
of Ohio Northern University. Jason, my sister is also an alum 
of Ohio Northern University. We welcome you to our Subcommittee 
meeting today.
    Chairwoman FINKENAUER. Thank you very much, Dr. Joyce.
    Mr. Nath, you are now recognized for 5 minutes.

  STATEMENTS OF CHAD NATH, EXECUTIVE DIRECTOR, LINK GRINNELL, 
   INC.; JEREMY KETELSEN, VICE PRESIDENT, KETELSEN RV; MARK 
REMBERT, HEAD OF THE RURAL INNOVATION NETWORK, CENTER ON RURAL 
 INNOVATION; JASON DUFF, FOUNDER, SMALL NATION, BELLEFONTAINE, 
                               OH

                     STATEMENT OF CHAD NATH

    Mr. NATH. Thank you, Chairwoman Finkenauer, Ranking Member 
Joyce, and distinguished members of the Committee.
    My name is Chad Nath. I an born and raised in Iowa. 
Northwest Iowa is where I grew up and then settled down in the 
Grinnell area. I taught school for 7 years. I was a middle 
school special education teacher and a kindergarten teacher, 
and then after that I went to Grinnell Regional Medical Center 
where I held several different roles in that organization--
emergency preparedness, safety security, incident commander for 
any events that had occurred, and then also public health. So, 
and then we also had a day camp program which then made me 
change to my new career right now which is I am the executive 
director of LINK Grinnell. It is a nonprofit that was dreamed 
up on May 30, 2019, and we knew that there was a huge demand 
and need for childcare in rural Iowa as well. So we had a study 
that had been done 4 years ago that identified that there were 
500 children that did not have the designated home for 
childcare and basically the need and demand was there.
    So I decided to leave the hospital in order to lead this 
venture. What we ended up doing was to work very hard and were 
very distinct on the name LINK. So Lead, Inspire, Nurture and 
Keep children active and engaged.
    So we are basically a cradle-to-career program. So we look 
at ways that we can enrich and provide services to children of 
all ages. We started with afterschool programs. So last year, 
about a year ago, we opened our doors and started providing 
care. And we saw that that was a huge benefit. Then all of a 
sudden in March is when COVID hit, and being someone that has 
done a lot of planning for hospitals, I know that the surge 
capacity for a hospital and long-term care facilities and first 
responders is desperate and they need the staff to be focused 
and engaged with their patients and clients and that type of 
thing. So we pivoted from an afterschool program to providing 
care for children of essential workers. We sent out a survey. 
We identified that there were 98 families who filled out the 
survey. There were 163 children that were identified. And of 
that, as things got big, bad, and ugly with community spread 
that there would be 86 children. So what that did in my 
emergency mind thinking was we needed to have capacity to have 
86 children with groups smaller than 10.
    So what we ended up doing is we created what we call 
isolated pods. So we have no more than 10 individuals in each 
of these pods. And they are basically like a family unit. So 
they have an entrance and an exit, restrooms, dedicated staff. 
With that I needed facilities. So I talked to the State of 
Iowa. Ended up getting memorandum of agreements with seven 
different facilities in order to basically contract or expand 
depending on the situation in the community spread. Now, we 
ended up seeing 37 children, and a majority of those were in 
one long-term care facility that in Poweshiek County we had 166 
positive cases as of today, and 83 were all from this one long-
term care facility. So they got hit really hard. So we were 
taking care of their staff children and also hospital staff as 
well.
    We also continued all the way to June 1st where then we 
pivoted to allowing the public in as well. So we did a summer 
program. That was 76 children. We ended up doing six isolated 
pods in two different facilities. The school system has been 
wonderful in our area to allow us to utilize a lot to do six, 
four pods and then ultimately, two pods. Now, all along, we 
have been making sure that we are disinfecting. We use PPE, all 
these different types of things in order to make this function 
and work appropriately.
    So I did not get through everything. There are so many 
things to unpack and unwind with it but, you know, we did 
fieldtrips. We did some other things that are pretty creative 
and unique. Bussing, cleaning the bus and all those different 
types of things in order for that to happen. And then obviously 
derecho hit and Grinnell actually lost power for more than 12 
days and obviously you cannot have childcare during that time 
because there was a lack of power. Although we did restore 
power 12 days later and then the demand for childcare, because 
again, because our school year got pushed clear back, so they 
just started Tuesday of this week, and so we filled that gap as 
well. And now we do afterschool care Tuesday, Wednesday, and 
then that is where I will go after this discussion.
    Chairwoman FINKENAUER. You are a very busy guy. You have 
been doing so much. I look forward to asking questions and 
hearing even more later.
    Now we will go to Mr. Ketelsen. You are now recognized for 
5 minutes.

                  STATEMENT OF JEREMY KETELSEN

    Mr. KETELSEN. Thank you, Chairwoman Finkenauer and Ranking 
Member Dr. Joyce and distinguished members of the Committee.
    I am Jeremy Ketelsen, Vice President of family-owned 
Ketelsen RV with locations in Hiawatha and De Soto, Iowa. Our 
dealership was founded in 1962 and we roughly employ about 60 
people. We sell new and used travel trailers, horse trailers, 
used motorhomes. We also provide repair services and property 
services to customers. It is our family's life work to enable 
people to enjoy the great outdoors and travel this great 
country.
    Our dealership is working hard to come back from the 
economic shock of the pandemic. We have made progress, but 
challenges remain. Among our top concerns are keeping our 
customers and employees safe each day, inventory shortages, and 
parts supply chain issues.
    We were very fortunate that we did not need to completely 
close our business this spring, but that is not the case in 
other states. RV dealerships in several states were open for 
service only, and could only transact sales by phone or the 
web, and in some cases the RV dealers could not be open at
    all. So RVDA, RVIA, the Outdoor Recreation Roundtable and 
several RV associations worked to allow dealerships to remain 
open to serve the traveling public. The quick succession of 
state stay-at-home orders left some RV travelers stranded on
    the road and some had to leave both public and private 
campgrounds due to state and Federal ordered closures. In the 
meantime, RV ``snowbirds'' who winter in the south had to 
travel back home to their home state, and it was vital that RV 
dealerships remained open to provide those services to get them 
home.
    In the early days of the pandemic, first responders, 
including medical personnel, law enforcement, and critical 
utility workers used RVs to self-quarantine in areas. In Iowa, 
workers at the Des Moines RV Water Works utilized 20 RVs for 
temporary housing.
    As the assistant fire chief for Springville, Iowa, I have 
seen this firsthand and experienced it, and it is in our 
community's plan.
    With business operations severely restricted, a dealer 
survey conducted by RVDA in early April showed that 26 percent 
said their service, parts, and accessories business were ``down 
75 percent or more'' when compared with the level of business 
prior to the pandemic. Another 35 percent said their fixed 
operations business was ``down 50 to 74 percent.'' Forty-four 
percent of the dealers responding to that RVDA survey said 
their new RV sales volume was down 75 percent or more when 
compared with pre-pandemic levels, and 21 percent said that 
they were down 50 to 74 percent.
    With almost no revenue coming in, many dealers were forced 
to furlough or lay off, including ourselves.
    Because of crushing job losses throughout the country, the 
Small Business Administration's PPP loan initiative offered 
forgivable loans to small businesses. At the time of the RVDA 
survey, 92 percent of RV dealers responding said that they 
either had or planned to apply for a PPP loan. While my 
dealership did not apply for the program, it has been important 
to many RV dealers across the country. Since those
    Since those uncertain days of March and April, Americans 
have made it clear with the increase in business and enthusiasm 
towards the great outdoors that this is an industry that can 
help heal the Nation during times like these.
    We are now faced with supply chain issues. Like many 
dealers in the country, our inventory is down, and even more 
down after the derecho. These supply chain issues have the 
potential to create a storm after a storm. If manufacturers of 
RVs, which are primarily American made, cannot get components 
from the suppliers to build the product, it will lead to a 
challenge because we do not have products in stock during the 
time that consumers are seeking the outdoor experience.
    Some areas that we are watching down the road include 
access to campgrounds. People need public and private places to 
camp in an RV or tent. We thank those of you who voted for the 
Great American Outdoors Act, which will help modernize and 
improve the public campgrounds in our National Parks, forests, 
and Federal lands.
    Continued public investment in the outdoor recreation is 
extremely important to our country's future. Since the pandemic 
we have seen an increase in younger and first-time buyers at 
our dealership and at dealerships across this country. In our 
conversations with these customers, we are finding that there 
are a lot of parents who are using the outdoors to reconnect 
with their families. They want to get away from fear of the 
virus and spend time together as a family unit.
    We have been told by public health officials to get outside 
and recreate responsibly. People are hearing that message loud 
and clear. Nature heals our body and mind.
    So, on behalf of the $778 billion outdoor recreation 
industry, and the RV industry which has an overall economic 
impact of $114 billion and supports nearly 600,000 jobs, thank 
you for your support of small businesses like mine that help 
millions of Americans enjoy the great outdoors. We will 
continue to be part of the public health and the economic
    solution in rural communities across this country.
    Chairwoman FINKENAUER. Thank you, Mr. Ketelsen. We really 
appreciate it and look forward to asking questions here in a 
few minutes.
    I now would like to recognize Mr. Rembert for 5 minutes.

                   STATEMENT OF MARK REMBERT

    Mr. REMBERT. Chairwoman Finkenauer, Ranking Member Joyce, 
and distinct members of the Subcommittee.
    My name is Mark Rembert, and I am the head of the Rural 
Innovation Network at the Center on Rural Innovation. I am a 
regional economist by training, with a focus on rural 
development, and I spent nearly a decade leading economic 
development efforts in my hometown of Wilmington, Ohio 
following the Great Recession. It is a pleasure to be with you 
today to discuss the role of entrepreneurship in economic 
development.
    Even before the pandemic, rural America faced a crisis of 
economic opportunity. As recently as February 2020, more than 
1,200 rural counties had not recovered all the jobs lost during 
the Great Recession. This recent history suggests that the 
traditional approaches to rural development have not delivered 
economic prosperity on their own.
    Addressing the immediate economic issues faced by rural 
America is critical but it is not enough. Restoring rural 
America to its pre-pandemic trajectory will mean that most 
rural communities will continue to lag behind. Rural America 
needs a new economic model.
    One key factor driving the rural opportunity gap has been 
the growth of the digital economy. Between 2002 and 2016, the 
share of jobs requiring digital skills quadrupled from 4.8 
percent to 23 percent, and tech jobs experienced one of the 
fastest job growth rates from 2010 to 2016. Yet, today, rural 
America is home to just 5 percent of the workers in tech 
occupations, even though it accounts for 15 percent of the 
total U.S. workforce.
    At the Center for Rural Innovation, we believe that for 
rural communities to thrive, they must participate in the 
digital economy. Building digital economies and rural 
communities will require scalable tech startups that can create 
digital jobs in rural places.
    Supporting rural tech startups requires a different model 
than supporting Main Street businesses. Just like their metro 
counterparts, rural startups need access to equity-based risk 
capital, deep mentor and advisor networks, incubator and 
accelerator programs, and a trained digital workforce to draw 
upon. Yet, in most rural communities, these resources are 
lacking or do not exist at all. There is a need for new 
economic development models and increased Federal support to 
grow scalable entrepreneurship in rural communities.
    As the head of CORI's Rural Innovation Network, I have the 
pleasure of working with 18 rural communities in 17 states that 
are at the forefront of building tech-focused entrepreneurship 
ecosystems in rural areas. Communities like Red Wing, 
Minnesota; Durango, Colorado; Waterville, Maine, and Wilson, 
North Carolina are helping to lead the way by demonstrating 
that scalable tech entrepreneurship is possible in rural areas.
    The Federal government has already played an important role 
in supporting the success of the communities like these in the 
Rural Innovation Network. Each community in the network has 
received technical assistance from CORI's sister organization, 
Rural Innovation Strategies, Inc., through a collaborative 
agreement with the Economic Development Administration. RISI 
supports communities as they develop digital economic 
development strategies and then provides assistance as they 
apply for the EDA's Build to Scale program which was formerly 
the i6 program.
    Last year, three out of the eight communities that RISI 
supported received an i6 grant to expand their digital economy 
ecosystem work. Even though not every community RISI works with 
wins a grant award, the technical assistance they receive still 
provides them with a strategy and a foundation from which they 
can continue to grow their digital economy.
    Other Federal programs can also help accelerate scalable 
entrepreneurship in rural America. The SBA's Small Business 
Innovation Research program has a strong track record of 
spurring job creation through innovation. In theory, the SBIR 
should offer a critical source of capital for rural tech 
entrepreneurs, yet just 3 percent of SBI awards have been made 
to firms located in rural communities.
    The Build to Scale and SBIR programs illustrate two key 
insights for the role the Federal government can play in 
supporting tech entrepreneurship in rural communities. First, 
there should be more programs like Build to Scale that support 
the development of innovation-driven entrepreneurship 
ecosystems. We have seen firsthand how this program can 
accelerate the development of entrepreneurship ecosystems in 
rural communities. Second, the SBIR program shows that Federal 
funding alone is not enough. Without technical assistance to 
promote access in rural areas, programs aimed at supporting 
scalable entrepreneurship are likely to end up concentrated in 
areas where tech jobs already exist.
    While there is still great uncertainty about the long-term 
effects of the pandemic, one thing that we know for sure is 
that rural America cannot wait for the next recession to join 
the digital economy. In the age of the Internet, there should 
be no limit to where digital economy jobs and scalable 
entrepreneurship can take place. Thank you.
    Chairwoman FINKENAUER. Well, thank you, Mr. Rembert. I know 
I got excited when you talked about Red Wing, Minnesota. They 
have great walleye fishing up there, speaking of outdoor 
activities, right, Mr. Ketelsen? I look forward to asking you 
some questions, too, to hear even more about your expertise and 
ideas. Thank you, Mr. Rembert.
    Mr. Duff, you are now recognized for 5 minutes.

                    STATEMENT OF JASON DUFF

    Mr. DUFF. Thank you, Chairwoman Finkenauer, Ranking Member 
Joyce, and the distinguished members of the Subcommittee. My 
name is Jason Duff and I am the founder of Small Nation. 
Established 14 years ago in Bellefontaine, Ohio, Small Nation 
was formed during our Nation's economic crisis and is dedicated 
to investing in places, spaces and dreams for small towns and 
entrepreneurs.
    Bellefontaine is a town of 13,000 people in Logan County, 
60 miles northwest of Columbus, 25 miles from the nearest major 
interstate, and an hour from the closest metropolitan area. It 
is like many other important and valuable courthouse 
communities across the country. We have a strong
    commitment and reliance on agriculture, manufacturing and 
tourism. We are rural and depend on the vibrancy of our local 
economy and jobs to generate taxes which support local 
government, schools, and our community's health and social 
safety nets.
    Eighty percent of our downtown's storefronts were vacant 
when I began my journey 14 years ago. Blight, crime, arson and 
opioid abuse plagued our town. Working with city, county and 
other local leaders, my team and I developed a vision for how 
to restart our local economy that began with finding unique 
ways to reduce unemployment by investing in people as well as 
places.
    The kinds of new businesses which have flourished in our 
town include new dine-in restaurants, coffee shops, hair 
salons, shopping boutiques, air-bnb's, health and wellness 
studios and locally owned professional offices and services. 
All of these businesses have thrived because of the fact that 
they belong to a supportive, growing and innovative small 
business community. That community had to be created.
    Thankfully, we were introduced to organizations like the 
Small Business and Entrepreneurship Council, the local Chamber 
of Commerce, historic preservation organizations like Heritage 
Ohio and resources and grants from the Small Businesses 
Administration.
    COVID-19 and the ongoing pandemic poses an unprecedented 
new set of challenges for small businesses as they strive 
toward recovery. McKenzie estimates that between 1.4 million 
and 2.1 million small businesses could permanently close, and 
that estimate was based on just the first 4 months of the 
pandemic.
    The disruption has also created a host of new business 
opportunities and industries that small and local businesses 
can play an important role and win against their multinational 
competitors. We have seen the creativity of American 
entrepreneurs in ways they prepare and deliver food, create and 
provide education and training and using technology and video 
in ways that we never thought possible. We have also seen how 
businesses can step up and solve important health and safety 
needs during the pandemic. From creating masks, shields and 
much needed PPE, businesses of all sizes are responding and 
willing to serve. Small businesses are all essential.
    At the heart of all of this are people who listen, solve 
problems and create solutions and get paid for those solutions. 
A recent survey by Getapp shared that 92 percent of U.S. small 
businesses have reinvented themselves during the pandemic and 
that says a whole lot about this group of people. Small 
business owners are scrappy go-getters and there is no quit in 
them.
    Here are some key recommendations. Let's work together to 
expand programs that support small businesses' financial 
resilience. While the PPP program and EIDL programs provided 
much needed relief to many businesses, there is still so many 
micro businesses who have been left out. These micro businesses 
need access to capital to sustain, grow and expand their 
businesses. For example, small businesses need a long-term 
recovery loan program with low interest rates and favorable 
payment terms. Federal policies could also incentivize and 
leverage the success of equity and debt-based crowdfunding to 
provide entrepreneurs and businesses with a sustained source of 
capital to help them accelerate recovery and boost new business 
creation.
    Improve access to rural broadband. Now more than ever we 
need to find ways to enhance the access, speed and 
affordability of rural broadband to everyone. The next great 
business idea, invention or breakthrough can happen on a family 
farm, makerspace or independent specialty retail store.
    And the last is creating and expanding entrepreneurial 
ecosystems. We must continue to support the business 
organizations and nonprofits who train, advocate and bring 
entrepreneurs together, organizations like the Small Business 
and Entrepreneurship Council, the U.S. Chamber and the Small 
Businesses Admiration.
    In closing, I want to thank the Subcommittee for the 
opportunity to testify today. Now more than ever we need to 
find ways to really own and define what it means to be small. 
Small is adaptive, nimble and able to respond fast. It is the 
small ones in the small towns and neighborhoods everywhere that 
keep not only the economy, but the very spirit of our country 
alive and prospering. It is the mom and pops, the food we eat, 
the measure of good service, and the technology of the future. 
They are the people who create the beautiful things, share our 
knowledge and build bigger, better and stronger communities.
    Thank you for believing and supporting and making smart 
policies that support small business.
    Chairwoman FINKENAUER. Thank you, Mr. Duff. I truly 
appreciate your testimony and look forward to hearing from you 
later today as well. And thank you all for sharing with us.
    We are going to now begin our question portion. I will 
begin by recognizing myself for 5 minutes.
    My first question is to Mr. Nath. Mr. Nath, your work in 
childcare, especially all that you have been doing for the last 
year since LINK started, is pretty extraordinary. I know you 
dealt with challenges you were not expecting to have to deal 
with when you took over this endeavor.
    Can you speak to me about why it was important for you to 
enter the childcare sector, especially in a small town and some 
of the things that are a little bit different when it comes to 
childcare in rural areas versus our cities?
    Mr. NATH. Thank you for the question.
    Yes, it is vital. So when we started LINK, we went out to 
our organizations and they supported us. We asked for 2 years 
of funding, 100 percent donated dollars to start up LINK to 
provide childcare. This brings in a physician, you know, at the 
hospital, we had been looking for oncology for how long and 
orthopedics and the list goes on of different services and you 
cannot get those individuals in because the schools and 
childcare are not there to support those individuals. Plus, 
people want that for their families and to help that community 
thrive.
    So we were fortunate, and we were able to provide that 
essential childcare for free because we had those dollars that 
were donated in there. In order to have those people focus on 
the job they were doing, they need to make sure that these 
other worries are wiped away, and the only way to make a 
community thrive is to make sure that you have all those facets 
into place along with opportunities for your family. And so 
that is why it was so critical and so important for us to do 
what we did in that situation.
    Chairwoman FINKENAUER. Like you said, getting doctors and 
being able to attract the right talent to small towns has so 
much to do with the childcare that is available. Thank you for 
recognizing that need, and it underscores why this is such an 
important topic to be talking about on a Committee like this. 
As we are talking about rural development, we need to make sure 
that we do not have child care access disparities across the 
country.
    I have one other quick question for you before we move on 
to Mr. Ketelsen. The folks who work at LINK Grinnell are 
essential workers. Could you speak just a little bit about what 
hazard pay would mean to LINK Grinnell's workforce and how it 
would be helpful,
    Mr. NATH. Yeah, hazard pay would be critical in that 
situation. And you know, these individuals, a lot of the 
individuals are in the instant you need them. And so DHS was 
really good about getting background checks and all those types 
of things back to us really quickly. But you know, we are the 
front line of the front line. You know, that was the thing that 
was very challenging was to find a way to make sure that I kept 
my staff safe and the children safe during COVID. And knock on 
wood, luckily we have not had any instances where anybody has 
been positive, but we really adhere to some strict standards 
and made that work very well. So thank you for that question.
    Chairwoman FINKENAUER. Thank you so much.
    Mr. Ketelsen, one thing we talked about this morning and 
was mentioned in your testimony is a supply chain issue that 
you are running into in your industry. What are some of the 
factors you see leading to that? Would you find it to be 
helpful to make sure that we are understanding what the needs 
are for manufacturing and the industries--like those that are 
doing well during the pandemic--that could benefit from fixes 
to the supply chain?
    Mr. KETELSEN. A lot of our supply chain issues are derived 
from the fact of we went from zero during the COVID timeframe 
where no one was thinking about recreation during those initial 
times to 120 miles an hour of even the public officials saying 
the best way to enjoy your family and recreate is to be 
outside. And it is difficult for any industry to go from zero 
to not only where they were and then put them into a growth 
spike. And that is a lot of what that supply chain has created, 
which is a unique problem. It is an exciting problem for the 
future.
    Chairwoman FINKENAUER. Yeah. I know my time has expired, 
but when we had that discussion, it really did make me start 
thinking that we should be able to make up supply chain 
shortages by giving production opportunities to some of our 
manufacturers who may have slowed down in other areas of their 
business, including by helping them retool their operations to 
meet the needs that are there right now.
    With your supply chain issues, and the derecho on top of 
that I know it is going to be a long road for your business. I 
am very grateful for your expertise and everything you talked 
about today. Thank you, Mr. Ketelsen.
    I know my time expired, so I now yield to Dr. Joyce for 5 
minutes.
    Mr. JOYCE. Thank you, Chairwoman Finkenauer.
    My questions will start with Mr. Jason Duff. At 
Bellefontaine, you told quite an amazing story. You have been 
able to revitalize your small community with a balance of 
government, nonprofit, and private organizations. You talked to 
us, Mr. Duff, about an 80 percent vacancy rate with blight and 
turning that around to develop restaurants and small businesses 
and residences as well. Do you think that your community 
specifically benefitted from a tax base, from an enjoyment of 
life, from the development of new small businesses, from your 
ability to turn around a blighted area, an 80 percent vacancy 
rate for your numbers into a prosperous area?
    Mr. DUFF. Thank you for the question.
    The beginning of our journey began with recruiting that 
first business and that first entrepreneur that would take a 
risk on our town. And that happened to be an independent 
restaurant. You know, asking the community what we felt that we 
were missing to bring that traffic, that energy, that life, and 
luckily, an entrepreneur that made brick oven pizza that had 
multiple units decided to expand his business in our town. That 
was a big risk for him. But when that place opened up, there 
were already 13 other pizza places in our town but he had a 
distinct, unique recipe. He provided a unique customer 
experience and we honored the historic building that was there 
and the legacy of the traffic and energy that it had 150 years 
ago. So that became the catalyst for seeing that energy, that 
life, and that traffic come back to our town. When the 
restaurant started, there were other specialty retail stores 
that saw that traffic and saw the energy and life and said we 
want to be clustered around that, too. And then later, as 
people saw the specialty retail stores, the downtown gin 
decided to open up. And then people said, we want to live in 
the upper floors of that building.
    But now in the pandemic, you know, what we are challenged 
with--so to answer your question, it did improve the tax base, 
and it improved the tax base significantly not only for the 
employees that were working the businesses, the business owners 
that were developing profitable businesses, that they are 
earning income on, but the property values appreciated. And 
when the property values appreciated, that allowed more money 
to go back to local municipalities for our schools and for our 
area communities. So you know, the challenge now in the 
pandemic is that many of our downtown and independently owned 
restaurants have been forced to close. And so that industry in 
particular has really been challenged, and I think that we must 
work together to find programs that really help those 
independent restaurants be able to open back up and get their 
employees back engaged and working. And I know the PPP program 
and the EIDL program have been two successful measures on being 
able to do what it can do but there is still more work that has 
to be done.
    So the thing that we are working on right now is 
identifying if restaurants are going to be slower to come back 
online, what are the new ways that we can bring that traffic 
and energy and life to our towns and bring that technology, 
that broadband, getting our buildings wired up I think is going 
to be a huge step in the right direction.
    Mr. JOYCE. Mr. Duff, what you achieved at Bellefontaine, is 
this a model for success in other rural communities? And are 
you looking to implement that in other rural communities?
    Mr. DUFF. Absolutely. We believe that the model starts with 
finding ways to buy and invest in historic buildings, actively 
recruit and identify people who are entrepreneurially minded. 
And those people do exist in towns. Those ideas need to be 
heard, and we need to connect those ideas with people, 
community banks, and investors that have resources. And once 
these ideas come online, those folks need ongoing mentorship, 
coaching, and support. And I believe this model is working and 
can work and it can help towns all across the country.
    Mr. JOYCE. And thank you for being the conduit for joining 
those different groups together.
    My next question is for Mr. Chad Nath. Mr. Nath, you 
mentioned searching for funding through nongovernment sources 
in donations and grants and stipends. Approximately, how many 
of your dollars were you able to make up from nongovernment 
sources?
    Mr. NATH. From nongovernment sources? So you know, we start 
off actually from our local businesses are the ones that 
actually supplied us with the dollars that we thrived on during 
that time. Not thrived but we worked with. We did do a 
community block grant and the PPP, we did not get it in the 
first phase. And then we had just some of the people that were 
essential staff provided some donations. So those went into 
donated dollars. We did not assess a fee or process a fee. We 
allowed them if they sort of chose to give some dollars back 
and we had a few that did that. Some just could not afford to 
do that. So those are the ways that we made this work. We wrote 
grants all over the place and, you know, from the Iowa Women's 
Foundation in this area. We did 5-2-1 zero dollars. We looked 
for different ways that we could fund this and make this work. 
And luckily, at this point we hopefully can see the clearing a 
little bit.
    Mr. JOYCE. And I commend you.
    My final question is for Mr. Rembert. We have talked in 
this Committee at length about bridging the digital divide for 
rural communities. We are committed to working for that. In 
your written testimony you mentioned that each community has 
individual challenges with this task. From a Federal level, we 
understand that the Federal government needs to support these 
efforts without imposing a ``one size fits all'' approach. Do 
you agree from your stance, from your perch, that a ``one size 
fits all'' will not be successful as we continue to bridge that 
digital divide?
    Mr. REMBERT. Yes. I think we find that rural communities 
each have specific assets and specific challenges that have to 
be addressed in unique ways to be successful in doing this, 
especially when we are talking about building entrepreneurship 
ecosystems that are really focused on building scalable 
companies.
    You know, I think that in our experience, you know, 
programs that sort of match resources with local capacity 
building that allow the solutions to be built from the 
community level up and then are matched with resources that can 
come in to really build the capacity of the community to 
advance a strategy is really where we think success can be 
achieved because, you know, in rural communities in particular, 
capacity is always going to be a significant constraint. And so 
to the extent that programs can actually build local capacity 
based on strategies and ideas that are developed by local 
leaders, I think the Federal government can play a really 
important role in doing that. So in that sense, you know, 
having one solution to every community develop is not 
necessarily the best if it is not building that local capacity 
leadership strategy that can bring local resources together to 
really advance a vision.
    Mr. JOYCE. And again, we salute your commitment to the 
rural communities.
    Thank you, Chairwoman, and I yield the remainder of my 
time.
    Chairwoman FINKENAUER. Thank you, Dr. Joyce. The gentleman 
yields back.
    Now I would like to recognize the gentlelady from 
Minnesota, Congresswoman Craig, for 5 minutes.
    Ms. CRAIG. Well, thank you so much, Madam Chairwoman. And 
before I get into my questions about COVID-19 and economic 
recovery, I want to recognize you specifically for all of your 
tremendous work on behalf of your constituents as you recover 
from the August derecho. So thank you, thank you for everything 
you have been doing. I have been following you and just wanted 
to recognize your work.
    In getting back to our panelists, I just want to say thank 
you for all of you for being with us today to talk about these 
topics, some of the same topics that have greatly impacted my 
constituents.
    And I want to first turn to Mr. Rembert for my question and 
tie it back to the work of an organization called Red Wing 
Ignite, a nonprofit that I am proud to have in my district. Red 
Wing Ignite fuels economic development by working with key 
sectors of the community to spur innovation by supporting 
entrepreneurs, businesses, and students.
    As you mentioned in your testimony, and certainly Ignite 
has done this in adapting to COVID-19, there has been 
adaptation through virtual webinars, online mentoring programs, 
and more to support entrepreneurs. However, in this time of 
remote working and online events, internet access to these 
entrepreneurial programs and support is essential. So can you 
talk just a little bit more deeply about how rural broadband 
fits into this work and how the Center on Rural Innovation is 
working to expand rural broadband so more entrepreneurs can 
access these services?
    Mr. REMBERT. Yes. Broadband is the sort of foundational 
infrastructure that is required to build tech startups in rural 
places. And so it is extremely critical. When we look at 
communities to work with, one of the things that we look for is 
do they have broadband infrastructure in place. And you know, 
the fact is there are a lot of rural places that have great 
broadband, Red Wing being one of them. It has a fiber network 
which is exceptional. So many rural communities are really 
equipped to start doing this work but there are still 
significant parts of rural America that are not connected. And 
that is just an issue that we cannot wait to solve. It needs to 
be addressed yesterday before this pandemic hit, and we are 
really seeing the effects of it now.
    As an organization, we help to raise awareness through our 
data and mapping research about the critical role of broadband 
and where there are gaps. And our sister organization, Rural 
Innovation Strategies, Inc. does do specific work with rural 
communities that are developing, that need help developing 
broadband and fixing gaps in their broadband infrastructures. 
So you know, we definitely encourage Congress to really focus 
on the need to bridge the digital divide around broadband in 
rural America.
    Ms. CRAIG. I just want to stick with you for one more 
minute. In looking at the economic effects of COVID-19 and 
comparing it to the Great Recession, how is it the same and how 
is it different? And does that speak to any future of what the 
recovery and what entrepreneurial opportunities come out of 
that look like?
    Mr. REMBERT. Yeah, so I mean, I think it is a little bit 
even too soon to say what this is going to look like. As an 
economist, I think that this is still an evolving situation. 
And so, you know, what we have seen so far is that this 
recession actually looks quite different than the Great 
Recession. So in one way in particular in the Great Recession, 
rural communities were actually much more severely impacted. So 
far in this economic crisis, rural communities have been 
somewhat, you know, have been less impacted partly because they 
have not necessarily experienced the same severity of outbreaks 
that more urbanized areas have.
    The question is, what will the long-term effects be? I do 
not think we quite know. You know, in our own analysis of like 
the most recent ELS data, it looks like the recovery is 
starting to slow in rural America. Before, you know, before 
rural America has recovered the jobs lost since February, so 
you know, and the fact that rural America is predominantly, has 
disproportionate employment among small businesses is a real 
risk, too. And as we saw during the Great Recession, small 
businesses are much more vulnerable to these kind of shocks. 
And so that can have much longer-term impacts in rural 
communities, which is one of the reasons why we think it is 
probably the case that rural America has not recovered from the 
Great Recession overall.
    Ms. CRAIG. Thank you so much. I am sorry I did not get to 
ask each of you a question but Madam Chairwoman, it looks like 
my time is up, so I will yield back.
    Chairwoman FINKENAUER. Thank you, Congresswoman.
    With that I will recognize the gentleman from Ohio, Mr. 
Chabot, who is the Ranking Member of the Small Business 
Committee, for 5 minutes.
    Mr. CHABOT. Thank you very much, Madam Chair.
    I think Mr. Ketelsen, I will go to you first if I can.
    You mentioned that one of your priorities is keeping your 
employees and your customers safe. And you know, one of the 
things that we have been considering is liability protection. 
So for example, if you have a customer that comes in, tests 
positive, and God forbid should they perish from the disease, 
that you might be a target of a lawsuit or one of your 
employees, you know, comes down positive. They might say you 
did not take every precaution and you end up getting sued. Now, 
you might have workers' comp in your state but nonetheless, 
even if you ultimately prevail, even if you win you lose 
because of the attorneys' fees and all the costs involved, any 
thoughts about whether we ought to be doing something in that 
area to protect small businesses like yourself from being 
targets of liability, either from a customer or from an 
employee?
    Mr. KETELSEN. You know, initially, that was a major concern 
of what is our liability in this situation or in this current 
scenario and then future scenarios as well and how do we plan 
that as a company to help mitigate or reduce those risks. Who 
do we turn to? And the people that we turned to obviously did 
not have great clear answers as well either just due to it just 
being something that was unknown.
    So that is an area that comes up that we constantly are 
discussing as a business, as leadership, and even as the 
employees on what kind of risks that people are willing to 
take.
    Mr. CHABOT. We have been considering a second round and 
that has been one of the stumbling blocks because one side 
thinks that we should have these protections in general and the 
other side thinks we should not, so that is one of the 
stumbling blocks.
    But let me shift over. I think Mr. Nath next.
    I have visited I think 60-plus small businesses in my 
community in trying to see how the PPP worked for them or how 
we could have done things differently, just how they are 
getting along. And several of them were in the childcare area. 
And you know, one of the things that I have heard when they 
were allowed to reopen or, you know, some were essential to 
begin with, but the bottom line is they had to have fewer 
children and they had some problem with some of the employees 
being concerned about their own health and other matters like 
that.
    Has that been an issue with you as far as the numbers of 
children that you can have and do you see that evolving over 
time, and is PPP allowing you to maybe weather that? You know, 
when do you become profitable again I guess is what I am 
asking.
    Mr. NATH. So PPP, the hard part about that is, you know, 
nobody knows the duration. You know, so we just basically did a 
guestimate of what we thought we would need and it basically 
lasted for two and a half payrolls. We are biweekly. That is 
why another round of that could be more beneficial because then 
we can go off of the data and the information that we have.
    Staff wise, you know, under these emergency guidelines, we 
were able to get plenty of individuals to sign up and be able 
to be there in case things increased. We ended up with about 
$22,000 in revenue from the summer program, and our staff costs 
were about $78,000. So that is a shortfall, you know, roughly 
$56,000. But again, we have local businesses that are 
supporting us in a way that I have had, you know, Grinnell 
College come up and say, hey, if you need anything let us know. 
We will donate to that. But again, it is a chicken or the egg 
type of situation with childcare. You know, those businesses, 
if they are not open, it is hard for them to support to 
generate revenue that can go to support childcare within the 
community. So there is a lot of complex situations.
    Mr. CHABOT. Thank you very much.
    I have one more question to a fellow Buckeye here, Mr. 
Duff. Obviously, we had a pretty aggressive governor in 
clamping down on this and trying to keep the people safe on 
masks and how many people could come in and dining inside and 
outside. Any thoughts there? Anything that you would like to 
see from here on that could be helpful to your businesses or 
others in your community?
    Mr. DUFF. Well, based on our COVID counts here in Logan 
County, you know, we have had experienced more of an economic 
crisis that has been damaging health. And of course, you know, 
every COVID case and every COVID death is a serious situation. 
But in my county here, in April, we were 31 percent 
unemployment. That is the highest in Ohio by 10 basis points. 
And a big part of that reason is that our Honda plants and our 
manufacturing plants that support automotive manufacturing were 
all closed and so were so many of our independent businesses in 
our small towns and our recreation areas. And so that cost, and 
the health crisis, what we are dealing with that cost is also 
very significant. So I think that we need to be looking at 
strategies for how we look at health in more of a global 
perspective that the virus is here and we are going to continue 
to work on that. But I think the work that this Committee is 
doing and then all of us here today need to be focusing on the 
health crisis related to the economy and how we can get people 
safely back to work and businesses safely reopened.
    Mr. CHABOT. Thank you very much. Thank you, Madam Chair. 
And thank you to all the witnesses. I yield back.
    Chairwoman FINKENAUER. Thank you, Mr. Chabot.
    With that, I do not believe there are any more questions 
for today, so we will conclude. I want to say thank you again 
to all of our witnesses: Mr. Nath, Mr. Duff, Mr. Ketelsen, and 
Mr. Rembert. I also want to thank Ranking Member Dr. Joyce. 
This has been our first online official hearing, so we did it, 
but it would much better to get to see everybody in person. We 
hold out hope that this pandemic will get under control, we get 
vaccines, and we get everybody going again.
    In the meantime, having these types of discussions is going 
to be really, really helpful for us as we come through the 
pandemic and figure out how to stimulate our economy while 
ensuring we do not leave rural America behind as we do it.
    Thank you to our witnesses for taking the time to uplift 
what is happening on the ground. This was a really helpful 
discussion, and I think the members would agree here. We remain 
committed to listening and trying to figure out how we can do 
more of what works, how can we fix what does not work, and how 
can we again keep planning for the future. I will continue to 
uplift stories and solutions to leaders in the House, the 
Senate, and the White House, so we can come together, put 
differences aside, get people out of their corners, and respond 
to the needs of our small business owners, our essential 
workforce, and all the folks who are doing so much for our 
country right now but are worried every single day about what 
the future looks like.
    I am honored to be the Chairwoman of this Subcommittee 
because we do find common ground here. That is the way this is 
supposed to work. We will keep doing our best, and I know we 
are very grateful for all of you guys on the ground doing yours 
as well.
    Again, I want to say thank you and stay hopeful for the 
future even though I know there is a long way to go.
    With that, we will conclude this hearing. I would ask 
unanimous consent that members have 5 legislative days to 
submit statements and supporting materials for the record.
    Without objection, so ordered.
    If there is no further business to come before the 
Subcommittee, we are adjourned. Thank you.
    [Whereupon, at 2:15 p.m., the subcommittee was adjourned.]
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
